                                                             Office of the United States Attorney
                                                                              District of Arizona




                                PRESS RELEASE
FOR IMMEDIATE RELEASE                                            For Information Contact Public Affairs
October 1, 2003                                                                  HARRIET BERNICK
                                                                           Telephone: (602) 514-7736
                                                                                Pager: (602) 356-0004




    STUDENT LOAN SWINDLE SHUT DOWN

          PHOENIX, ARIZONA -- The United States Attorney’s Office for the District of Arizona

announced today that on October 1, 2003, a federal grand jury at Phoenix, Arizona, returned a four count

indictment against JOHN E. CHRISTENSEN, (D.O.B. 4-21-41), of Mesa, Arizona.

          The indictment alleges that beginning in 1999 and continuing until September 2003,

CHRISTENSEN devised a scheme to use the personal identifying information of others as though it were

his own, thereby concealing from lenders, schools, and the United States Department of Education the

number and status of loans and other forms of student aid he had already received. According to the

indictment CHRISTENSEN used more than 50 different identities to obtain about $313,416. The personal

information he used typically pertained to prison inmates serving long prison sentences. The indictment

also seeks forfeiture of more than $58,000 from 10 bank accounts, $11,600 in U.S. currency found during

searches, a house, and a car, all alleged to be proceeds of the scheme to defraud. CHRISTENSEN has been

detained since his arrest on September 2, 2003.

          The indictment charges CHRISTENSEN with violating Title 20, United States Code, Section

1097 (Financial Aid Fraud), Title 42, United States Code, Section 408(a)(7)(B) (Social Security Fraud),



                                                  (MORE)
                                                     2

Title 18, United States Code, Section 1029(a)(1) (Access Device Fraud) and Title 18, United States Code,

Section 1028(a)(7) (Identity Theft).

           According to the complaint filed previously in this case, Christensen arrived at Mesa Community

College on September 2, 2003, to claim a student financial aid check under the name of Frank Morgan.

Staff at the Financial Aid Office recognized Christensen as the same person who had claimed an aid check

under the name George Aikens, and called campus security. Christensen took off on foot shortly after

security arrived, but was caught by campus security and Mesa Police. Christensen then produced

identification in the name of Joseph Bruce, and had in his possession identification in the names Frank

Morgan and Donald Joy, according to the complaint. According to the complaint, student loans were

applied for or obtained in six different names (Frank Morgan, Donald Joy, George Aikens, Joseph Bruce,

Paul Reed, and John Dubalski), at three local community colleges (Mesa Community College, Maricopa

Community College, and Scottsdale Community College).

           A conviction for Financial Aid Fraud carries a maximum penalty of five years, a $20,000 fine or

both. A conviction for Social Security Fraud carries a maximum penalty of five years, a $250,000 fine or

both. A conviction for Access Device Fraud carries a maximum penalty of 10 years, a $250,000 fine or

both, and forfeiture. A conviction for Identity Theft carries a maximum penalty of 15 years, a $250,000 fine

or both, and forfeiture.

           An indictment is simply the method by which a person is charged with criminal activity and raises

no inference of guilt. An individual is presumed innocent until competent evidence is presented to a jury

that establishes guilt beyond a reasonable doubt.

           The investigation preceding the complaint was conducted the Office of Inspector General of the

United States Department of Education, the Office of Inspector General of the Social Security

Administration, the U.S. Secret Service, the Mesa Police Department, and College Safety, Mesa Community

College.

                                                (MORE)
                                                   3

       The prosecution is being handled by Daniel R. Drake, Assistant United States Attorney, District of

Arizona, Phoenix, Arizona.

CASE NUMBER:                 CR-03-1014-PHX
RELEASE NUMBER:              2003-170


                                                # # #




                                               (MORE)
